Note: This letter was also sent to Donald R. DePriest and Susan Richardson Williams




Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General




                                                         December 18, 2006



Mr. Robert M. Duncan
Chairman and CEO
Community Holding Company
Inez Deposit Bank
205 Main Street
P.O. Box 365
Inez, Kentucky 41224

Dear Mr. Duncan:

AUDIT 2006-040F – REVIEW OF PRICEWATERHOUSECOOPERS’ AUDIT OF THE
TENNESSEE VALLEY AUTHORITY FISCAL YEAR 2006 FINANCIAL STATEMENTS

        The Tennessee Valley Authority (TVA) contracted with the independent certified
public accounting firm of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit
the balance sheets as of September 30, 2006 and 2005, and the related statements of
income, changes in proprietary capital, and cash flows for each of the three years in the
period ended September 30, 2006. The contract required the audit be done in accordance
with generally accepted government auditing standards.

        Under the Inspector General Act, the Inspector General (IG) is responsible for
taking appropriate steps to assure that any work performed by nonfederal auditors,
including PricewaterhouseCoopers, complies with generally accepted government auditing
standards. The Chief Financial Officers Act of 1990 also places responsibilities on the IG
regarding TVA’s annual financial statement audit. In keeping with these statutory
responsibilities, the TVA Office of Inspector General reviewed PricewaterhouseCoopers’
reports and related audit documentation, interviewed their representatives, and performed
such other procedures as we deemed appropriate in the circumstances to provide
reasonable assurance the audit was performed in accordance with generally accepted
government auditing standards.
Mr. Robert M. Duncan
Page 2
December 18, 2006



       The objective of our review was not intended to enable us to express, and we do not
express, an opinion on the TVA’s financial statements or on management’s conclusions
about the effectiveness of its system of internal control. PricewaterhouseCoopers is
responsible for the auditor’s reports dated December 14, 2006, and the conclusions
expressed in the reports. However, our review disclosed no instances where
PricewaterhouseCoopers did not comply, in all material respects, with generally accepted
government auditing standards. Our review was performed in accordance with generally
accepted government auditing standards.

                                           Very truly yours,



                                           Richard W. Moore
cc: Mr. Donald R. DePriest
    206 8th Street North
    P.O. Box 1076
    Columbus, Mississippi 39701

    Mr. Michael A. Herman
    PricewaterhouseCoopers LLP
    One North Wacker, 14th Floor
    Chicago, Illinois 60606

    Ms. Susan Richardson Williams
    SRW & Associates
    137 S. Gay Street
    Knoxville, Tennessee 37922

    John M. Hoskins, WT 4C-K
    Randall P. Trusley, WT 4B-K
    OIG File No. 2006-040F
